                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS


Il                                          ACTION MEMORANDUM

      TO: AIGI          File Number: M-00080033                                                     Date: Jan. 24,2002

      Subject: Closeout Memorandum                                                                                Page 1 of 3



            ere     informed of an allegation that a researcher' failed to provide a graduate student2
           authd;hip credit on a paper.3" The researcher provided the graduate student with an
           a~knowled~ment.~  We reviewed information independently obtained from the researcher and the
           ~niversity,~and determined that the researcher was alleged to have

               1)        failed to provide appropriate co-authorship to the graduate student
               2)        abused animals in the course of his research, and
               3)        harassed the graduate student.

           The researcher counter alleged the graduate student plagiarized material in her unpublished
           dissertation proposal submitted to the University and failed to return data gathered during the
           project to him.

           After reviewing materials provided by the researcher and the University we determined that the
           University appropriately handled the allegation of plagiarism and failure to return data against the
           graduate student. First, there is no evidence that the graduate student submitted the dissertation
           proposal to an outside source or that it was used in a public venue in a way that would make it

                                Associate Professor. De~artmento                                    fu n i v e r s i t v l l l b



            Support for the research describedin the Paper was credited to NSF a w a r d l l
                                                research described in a proposal entitled,rL
                                               The award and proposal identified the researcher as tl




11                  I   Prepared by:   I                     Cleared by:                      11

111
                    I                  I
                                       I
                                                         I
                                                         I
                                                                            I
                                                                            I                 Ill          'a-
                                                                                                             A
                                                                                                                           -
5   .
    %        I                                fii ,
                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
        Y+                                       OFFICE OF INVESTIGATIONS

                                          ACTION MEMORANDUM

TO: AIGI            File Number: M-00080033                                                    Date: January 24,2002

Subject: Case Closeout                                                                                    Page 2 of 3


         appropriate for OIG to intervene. Second, awardee institutions are responsible for the data
         collected under federal awards and must be able to retrieve this information at any time up to 3
         years fiom the submission of the Final Report upon receipt of a request fiom an authorized
         federal source. OIG did not request these data and also concluded that they were not necessary to
         review these allegations. Further, no one asserted that the data are lost, merely that access was
         restricted in a contentious situation. OIG concluded that this was an internal matter resulting
         from the resolution of the contentious relationship between the parties. OIG need not intervene.

         The researcher was alleged to have harassed the graduate student. We learned that, the
         relationship between the researcher and the graduate student had deteriorated to the point that the
         University established a new thesis committee and the graduate student conducted her research
         work outside of the researcher's control and laboratory. The University also resolved this matter
         satisfactorily by separating the two individuals in a way that permitted each to continue their
         research. In this circumstance, this was a satisfactory way to resolve this issue. It does not
         require OIG's review.

         Regarding the alleged abuse of animals, the proposal contained a certification fiom the
         University's Institutional Animal Care and Use Committee (IACUC) that it had reviewed and
         approved the research. The IACUC also reviewed the allegation of animal abuse and determined
         that there were no reportable violation^.^ It urged the Department to ensure its faculty are aware
         of and sensitive to ethical norms. There is no evidence that the IACUC process was inadequate
         or that OIG should review its decisions.

         In the context of the allegations above, we concluded that the University was best positioned to
         assess the authorship allegation. Accordingly, we deferred the review of it to the University.
         The University provided us with its report and we also received additional information from the
         researcher. The researcher demonstrated that the idea for the project and the research plan were
         the results of his longstanding interest and predated the graduate student's work. The researcher
         characterized the graduate student's work as similar to that of his technician, who also received
         an acknowledgement. Both the researcher and student agree that the student conducted
         experiments and collected data described in the paper's figures and table. They disagree about
         the quality of that work. Both also agree that the student did not participated in drafting or

         '
                                                                                                  _a
           The graduate student's allegations were that the subject poorly maintained research animal              he
         expected her to remove internal organs from an animal that was not dead. The graduate student sai in deposition
         that she would not kill animals and required someone else to do it for her.
.       ,
             ?
    -
                                                  I!
h


        *
        aL
                     r.
                     J                            NATIONAL SCIENCE FOUNDATION
                 I                                 OFFICE OF INSPECTOR GENERAL
             J
                                                     OFFICE OF INVESTIGATIONS

                                              ACTION MEMORANDUM
                                                                                                                       1




    TO: AIGI              File Number: M-00080033                                           Date: January 24,2002

    Subject: Case Closeout                                                                           Page 3 of 3


                 revising the paper and had failed to comprehensively review the draft provided.

                 The University committee also reviewed written testimony fi-om senior scientists stating that it is
                 the scientific community's practice to determine authorship based on substantive, intellectual
                 contributions and review and approval of the manuscripts. The senior researcher on a project
                 typically determines who will receive authorship or acknowledgments. The University
                 concluded that the evidence did not support the allegation. OIG concluded that the University's
                 decision was appropriate. The researcher's paper relied in part on data gathered by the graduate
                 student, but the graduate student had no substantial intellectual contribution to the development
                 of the paper. Authorship is based not merely on the volume of data collected but the intellectual
                 involvement required in successfully describing a research project and assessing the collected
                 data. While the researcher's actions may be less than supportive of the development of a young
                 scientist's career, his actions do not rise to the level of research misconduct.

                 This inquiry is closed and no further action will be taken on this case.
